No. 19-988
In the

Supreme Court of the United States
LIVING ESSENTIALS, LLC;
INNOVATION VENTURES, LLC,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.
On Petition for a Writ of Certiorari to the
Washington Court of A ppeals, Division One

BRIEF FOR AMICI CURIAE ROBERT M.
MCKENNA AND MICHAEL C. TURPEN
IN SUPPORT OF PETITIONERS
Robert A. Nance
Counsel of Record
Stephanie L. Theban
Riggs, A bney, Neal, Turpen,
Orbison & Lewis, PC
528 NW 12th Street
Oklahoma City, OK 73103
(405) 843-9909
rnance@riggsabney.com
Counsel for Amici Curiae
294735

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
IDENTITY AND INTEREST OF AMICI . . . . . . . . . . 1
II. SUMMARY OF THE ARGUMENT . . . . . . . . . 2
III. ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. The prior substantiation doctrine
requ i res v i r t ua l ly u na ssa i lable
substantiation of an adver tising
claim before saying a word. Without
t h a t s u b s t a nt i a t i o n t h e c l a i m
is misleading as a matter of law,
according to the Washington courts . . . . . . 7
B. E ve n i n d e t e r m i n i n g w h e t h e r
speech is m isleading, the Fi rst
Amendment requires better than
prior substantiation . . . . . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Central Hudson Gas & Electric Corp. v.
Public Service Commission,
447 U.S. 557 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 11
Illinois ex rel. Madigan v.
Telemarketing Associates,
538 U.S. 600 (2003) . . . . . . . . . . . . . . . . . . . . . 4, 5, 6, 10
Riley v.
National Federation of Blind of N. C., Inc.,
487 U.S. 781, 101 L. Ed. 2d 669, 108 S. Ct. 2667 . . 4, 6
U.S. v. Alvarez,
567 U.S. 709 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Statutes & Other Authorities:
U.S. Const. Amend. I . . . . . . . . . . . . . . . . . . . . . . . . passim
Sup. Ct. R. 37.2(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
Rober t M. McKenna and Michael C. T ur pen
respectfully present this as their brief as Amici supporting
the Petition for Certiorari of Living Essentials and
Innovation Ventures (“Petitioners”) seeking review of
the judgment of the Washington Court of Appeals in this
matter.1
IDENTITY AND INTEREST OF AMICI
Robert M. McKenna served as Attorney General
(“AG”) of the State of Washington from 2005 to 2013.
Michael C. Turpen served as AG for the State of Oklahoma
from 1983 to 1987. In both Washington and Oklahoma,
as in other states, the AGs are the chief law enforcement
officers for their states and enforce consumer protection
laws prohibiting unfair and deceptive acts and practices in
business and trade. When they take office, the AGs swear
to uphold and defend the United States Constitution and
constitutions of their respective states.
Former AGs McKenna and Turpen take seriously
the need to protect the public from false or misleading
advertising in commercial speech. However, they believe
that the free speech protections afforded by the First
Amendment are of vital importance to the preservation
of the people’s liberty and of our democracy. They
1. Amici have complied with Supreme Court Rule 37.2(a) by
providing notice to counsel of record for all parties at least ten days
prior to the deadline to submit this brief. All parties have consented
to the submission of this brief. No counsel for any party authored
this brief in whole or in part, and no party or counsel for a party has
made a monetary contribution to fund the preparation or submission
of this brief. No person other than the amicus curiae or their counsel
made a monetary contribution to its preparation or submission.

2
respectfully submit that the prior substantiation doctrine
employed in this case by the courts of the State of
Washington in their determination of whether certain
commercial speech was misleading violates the First
Amendment. They offer this brief in the hope it will be of
assistance to the Court in deciding whether to review the
judgment of the court below.
II. SUMMARY OF THE ARGUMENT
The substantive issue in this case is whether certain
statements of Petitioners in advertising the 5-Hour
ENERGY Drink (5-Hour) were deceptive. The courts
below applied the prior substantiation doctrine, which
requires speakers to have substantiation that constitutes
a “reasonable basis” for their claims before making the
claims. The courts below considered statements lacking a
“reasonable basis” misleading as a matter of law, without
regard to whether the statements were false. In effect, the
courts below used a supposed lack of prior substantiation
as a proxy for a finding that Petitioners’ statements
were misleading, even though no consumer had actually
complained that he or she was misled by the statements.
The First Amendment protects speakers from the
courts’ ad hoc and freewheeling determination of costs
and benefits, or, as here, of “reasonableness.” It requires
the most exacting scrutiny of laws restricting speech,
and places the burden on the state to demonstrate that
speech is not subject to protection. Further, the First
Amendment requires the State’s chosen restriction on
the speech at issue be “actually necessary” to achieve
its interest. Moreover, there must be a direct causal link
between the speech restriction imposed and the injury to

3
be prevented by the restriction. A requirement for prior
substantiation is unnecessary to determining whether
commercial speech is misleading and as a restriction
on speech has no direct causal link with detecting or
preventing misleading advertisements. Consequently, a
prior substantiation restriction on commercial speech
is unconstitutional when applied to determine whether
specific commercial speech is misleading.
The trial court below based its rulings on errors of
law and fact that the Court of Appeals essentially found
harmless. For example, the trial court found Petitioners’
claim that 5 Hour was superior to coffee was “certainly
plausible, given the science presented to the Court,” but
also found that this claim remained a hypothesis and was
not an established scientific fact. The Court of Appeals
recognized that even under the prior substantiation
doctrine, Petitioners were not required to establish their
claims as scientific fact. Despite the trial court’s errors of
fact and law, the Court of Appeals affirmed the trial court’s
ruling. As applied by those Washington state courts, the
prior substantiation doctrine requires a commercial
speaker to have a basis for its claims that is so strong that
it defeats challenges to the reasonableness of its claims
at trial. The Washington courts require something more
akin to absolute certainty than a reasonable basis. Thus,
under those courts’ application of the prior substantiation
doctrine, a speaker must have, before speaking at all, an
extraordinary level of substantiation. That burden on
commercial speech is unconstitutional under the First
Amendment.

4
III. ARGUMENT
This is not a case based upon an allegation or finding
that Petitioners’ claims about its 5 Hour Energy Drink
were actually false. The State of Washington began its
case by making such an allegation but then abandoned
it. This is a case based on a theory that an advertiser is
required to have substantiation amounting to “reasonable
basis” for a claim prior to advertising it. Under this theory,
where an advertiser prior to advertising a claim lacks a
“reasonable basis” for it (as a court might later determine
in an adversarial proceeding) the advertised claim is
deceptive as a matter of law. App. 11a. Consequently,
the commercial message is denied First Amendment
protection.
In Illinois ex rel. Madigan v. Telemarketing
Associates, 538 U.S. 600 (2003) the Court drew a crucial
distinction between three of its earlier cases that
invalidated on First Amendment grounds state prohibitions
on collecting supposedly excessive commissions by
charitable fundraisers – and a straightforward fraud claim
against a fundraiser for collecting money by knowing and
deliberately false representations. In doing so, the Court
affirmed the State’s burden to prove falsehood in fraud
cases, clearly analogous to the obligation of the State to
prove Petitioners’ claims were misleading in the present
case. In Madigan the Court stated:
In Schaumburg, Munson, and Riley, the Court
invalidated laws that prohibited charitable
organizations or fundraisers from engaging
in charitable solicitation if they spent high
percentages of donated funds on fundraising--

5
whether or not any fraudulent representations
were made to potential donors. Truthfulness
even of all representations was not a defense
. . . In contrast to the prior restraints inspected
in those cases, a properly tailored fraud
action targeting fraudulent representations
themselves employs no “broad prophylactic
rule.”
538 U.S. at 619. The fundraisers’ high commissions
lacked any nexus to the likelihood that the solicitation is
fraudulent. Id. Likewise, in the present case, supposedly
inadequate prior substantiation lacks any nexus to the
claim that the speech was misleading. Similarly in the
courts below the supposed lack of “reasonable” prior
substantiation renders a statement misleading as a matter
of law, and truth is not a defense. The theory applied by
the Washington Court allows the speaker to be found to
have made a misleading statement even if the statement
is true, so long as some court determines after the fact
that the speaker lacked “reasonable substantiation” before
making the statement.
In contrast to a prior restraint on solicitation, or a
regulation that imposes on fundraisers an uphill burden
to prove their conduct lawful, in a properly tailored fraud
action the State as plaintiff bears the full burden of proof
Id., 538 U.S.620. In Madigan, the Court explained that
a false statement alone did not subject a fundraiser to
fraud liability because, under Illinois law, to prove a
defendant liable for fraud, the complainant must show that
the defendant made a false representation of a material
fact knowing that the representation was false; further,
the complainant must demonstrate that the defendant

6
made the representation with the intent to mislead the
listener, and succeeded in doing so. Id. In a Consumer
Protection Act claim, the speaker is not required to have
malicious intent or to know that the statement is false or
misleading; however, to impose liability the statement
must be misleading. In applying the prior substantiation
doctrine, the Washington Courts imposed the burden
for proving that the statement is not misleading on the
speaker based on Petitioner’s supposed lack of prior
substantiation, just as the earlier cases discussed in
Madigan found falsity of fundraisers’ representation
based only on the high percentage of donations that
they kept. In all of these cases, state laws relieved the
government of its constitutional duty to actually prove
representations were false or misleading. This shift of the
burden is not permissible under the First Amendment.
In its earlier case of Riley v. National Federation
of Blind of N. C., Inc., 487 U.S. 781, 101 L. Ed. 2d 669,
108 S. Ct. 2667, the Supreme Court expressed concern
that case-by-case litigation over the reasonableness of
fundraising fees would inhibit speech. Madigan, 538 U.S.
620, n. 9 (citation omitted). That concern arose in large
measure because the North Carolina statute there at
issue placed the burden of proof on the fundraiser. The
Court has long cautioned that, to avoid chilling protected
speech, the government must bear the burden of proving
that the speech it seeks to prohibit is unprotected. Id. The
present case presents just such a burden on Petitioners
of proving in advance that their representations are
reasonable, that relieved the State of Washington of its
constitutionally required burden of proving Petitioners’
speech was unprotected as misleading.

7
The State of Washington did not prove or even argue
that the claims Petitioners made about 5-Hour were
false, that any consumer had been harmed by 5-Hour,
or that any consumer had claimed any injury, unfairness
or deception whatsoever as a result of Petitioners’
advertising or as a result of using the product. The trial
court concluded that Petitioners’ claim that 5-Hour works
better than caffeine alone in sustaining energy, alertness
and focus over several hours was “certainly plausible,
given the science presented to the Court,” but found
that the claim remained a hypothesis, not an established
scientific fact. App. 125a (emphasis added). Under the
unconstitutional “prior substantiation” standard adopted
by the Washington courts, the absence of scientific facts
established in advance made Petitioners’ statements about
5-Hour’s superiority to coffee misleading as a matter
of law. This prior substantiation requirement denies
Petitioners’ commercial speech the protection of the First
Amendment.
A.

The prior substantiation doctrine requires
virtually unassailable substantiation of an
advertising claim before saying a word. Without
that substantiation the claim is misleading as
a matter of law, according to the Washington
courts.

The Court of Appeals had before it evidence
supporting Petitioners’ claims about 5 Hour that was
“certainly plausible,” although not sufficient to establish
the claims as scientific fact. The Court of Appeals agreed
with Petitioners that the company was not required
to prove its claims were “established scientific fact.”
Nevertheless the Court of Appeals affirmed the trial

8
court’s ruling that Petitioners’ advertising was unfair and
deceptive as a matter of law while finding the evidence in
support of those claims to be “certainly plausible” and
supported by science
It is unreasonable and unconstitutional to place on
Petitioners the burden of foreseeing before they advertised
5 Hour that litigation would result in courts crediting the
State’s evidence at trial. Petitioners had not heard the
State’s evidence before it spoke in advertisements for 5
Hour and thus could not consider it in planning what its
advertisements would say. It is an evident contradiction
for the state courts to find that Petitioners’ claims were
based on plausible scientific evidence but that the company
had no reasonable basis for its claims. In wrongly placing
the burden on the speaker, when the Constitution places
the burden on the state, the prior substantiation standard,
requiring as it does a prior reasonable basis for a claim,
grants to regulators an impermissible degree of discretion
to charge as illegal and beyond the protection of the First
Amendment commercial representations that the speaker
had good reason to believe were valid. A reasonable
basis need not be an ironclad basis, nor must it rest upon
scientific certainty. Certain advertising claims might
ultimately be shown at trial to lack a proven scientific
basis but nevertheless may be reasonable when made
in good faith based on plausible evidence supported by
science. In the law, what is “reasonable” is a question of
fact. The prior substantiation doctrine requires a speaker
to be so well armed in advance with substantiation for its
advertising claims that it can win a contested case on the
reasonableness of its speech before it speaks at all

9
The prior substantiation doctrine requires the
speaker to substantiate the basis of its claims in advance
and with sufficient certainty to overcome the State’s later
evidence, before it says a word. Under that doctrine, a
speaker must not only be reasonable today but must be
reasonable tomorrow, and a year from tomorrow, when its
claims are challenged in court. Such a burden chills speech
and punishes commercial speakers—here by a civil fine
of over $2 million. In this case, the prior substantiation
doctrine has stripped away any constitutional protection
for speech that was based on evidence that was plausible
but not scientifically proven, turning plausible claims into
unfair and deceptive statements.
B. Even in determining whether speech is
misleading, the First Amendment requires
better than prior substantiation.
The First Amendment protects speakers from an ad
hoc and freewheeling determination of costs and benefits,
or, as here, from a regulator ad hoc determination of
“reasonableness.” U.S. v. Alvarez, 567 U.S. 709, 724
(2012) (Alvarez). It requires the most exacting scrutiny of
restrictions on speech. Id. The Court of Appeals accepted
the proposition that speech supported by some degree of
prior substantiation, however poorly defined, is socially
beneficial, while speech that is merely plausible but not
supported by such substantiation is not.
Under Central Hudson Gas & Electric Corp. v.
Public Service Commission, 447 U.S. 557, 564 (1980)
(Central Hudson) the State’s restriction or regulation of
commercial speech must be proportional to the State’s
interest, and carefully tailored to achieve the State’s goal.

10
The prior substantiation test fails that test. The State of
Washington’s legitimate interest in consumer protection
does not require an advertiser making plausible claims
to have substantiation for its message amounting to the
preponderance of scientific evidence before it can speak at
all. Such a requirement is disproportionate to the State’s
need to detect and deter misleading commercial speech.
The First Amendment requires the State’s chosen
restriction on speech to be “actually necessary” to
achieve its interest. Alvarez, 567 U.S. at 725. Moreover,
there must be a direct causal link between the restriction
imposed and the injury to be prevented. Id. It simply
cannot be argued that the prior substantiation doctrine is
“actually necessary” to protect the public from misleading
advertising. Nor is prior substantiation necessary to
determine if an advertisement is misleading. Certainly,
no direct causal link exists between the requirement
of prior substantiation and protection from misleading
advertising. Doubtless the State of Washington protected
its citizenry from misleading advertising before adopting
the prior substantiation doctrine and will continue to do
so if the Court invalidates that doctrine.
Nor is the prior substantiation doctrine carefully
tailored to achieve the State’s goal of preventing or
punishing misleading speech. Washington, and other
states, doubtless can and do prosecute misleading
advertisements after the fact and after establishing
how the advertisement is actually misleading just as in
Madigan the State of Illinois could prosecute traditional
fraud claims without reliance on the “prophylactic rule”
outlawing fundraising if high percentages of contributions
were retained by the fundraiser. Given the course of the

11
State’s litigation against Petitioners, in which the trial
court made errors of fact and law, and in which the State
could produce no consumer who claimed to be misled or
harmed by Petitioners’ claims about 5 Hour, it is clear that
the prior substantiation doctrine fails exacting scrutiny in
how it determines whether an advertisement is misleading
and fails to satisfy Central Hudson’s requirements for
proportionality and careful tailoring.
Central Hudson declared that if the governmental
interest at issue could be served just as well by a more
limited restriction on commercial speech, the excessive
restriction cannot be upheld. 447 U.S. at 564. The need to
prove an advertisement is misleading certainly does not
require the heavy-handed tool of the prior substantiation
doctrine. Nor does effective enforcement of prohibitions
against misleading advertising require it. The State of
Washington can protect the public from misleading speech
by conducting discovery in the normal course of civil or
administrative proceedings to make its case based on the
kinds of actual claims and evidence of consumer harm and
deception that are utterly lacking in this case.
Allowing the government to suppress speech because
it is not substantiated in advance to the level of certainty
defensible in subsequent litigation but instead is merely
“plausible” excuses government from the burden of
proving the speech is actually false or misleading and
violates the First Amendment.

12
CONCLUSION
The prior substantiation doctrine violates the First
Amendment because it places the burden on the speaker
to demonstrate that the speaker has the right to speak
rather than on the State to demonstrate that the speech
is not protected, because it is not narrowly tailored to
Washington’s need to identify and remedy misleading
commercial speech and because it bears no direct causal
relationship with that need. The Court should grant the
writ of certiorari.
Respectfully submitted,
Robert A. Nance
Counsel of Record
Stephanie L. Theban
Riggs, A bney, Neal, Turpen,
Orbison & Lewis, PC
528 NW 12th Street
Oklahoma City, OK 73103
(405) 843-9909
rnance@riggsabney.com
Counsel for Amici Curiae

